                             Limited Official Use




                 Taxpayer Remittances Were Generally
                   Safeguarded Within the Cincinnati
                 Submission Processing Site; However,
                 Perimeter Security Needs Improvement

                              September 2004

                     Reference Number: 2004-30-183




The Treasury Inspector General for Tax Administration (TIGTA) has
designated this audit report as Limited Official Use (LOU) pursuant to
Chapter III, Section 2 of the Treasury Security Manual (TD P 71-10) entitled,
“Limited Official Use Information and Other Legends.” Because this
document has been designated LOU, it may only be made available to
those officials that have a need to know the information contained within
this report in the performance of their official duties. This report must be
safeguarded and protected from unauthorized disclosure; therefore, all
requests for disclosure of this report must be referred to the Disclosure
Section within the TIGTA’s Office of Chief Counsel.




                             Limited Official Use
                                Limited Official Use
 Taxpayer Remittances Were Generally Safeguarded Within the Cincinnati Submission
          Processing Site; However, Perimeter Security Needs Improvement

                                                                                 Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Acting Director
Bill R. Russell, Audit Manager
Daniel A. Zaloom, Lead Auditor
Margaret F. Filippelli, Senior Auditor
Stephen A. Wybaillie, Auditor




                                     Limited Official Use
